®T _KO

ORIGINAL

f ^
KJ
No.

Supreme Court, U.S
FILED

1
|

SEP 2 7 202!

I

OFFICE OF THE Cl Frk'

IN THE
SUPREME COURT OF THE UNITED STATES

JOSEPH.WOODS

— PETITIONER

(Your Name)
vs.
SUPERINTENDENT

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

UNITED STATES COURT OF APPEALS SECOND CIRCUIT

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Joseph Woods 15a2130

(Your Name)
Wallkill Correctional Facility - Route 208, Box G

(Address)
Wallkill, New York 12589

(City, State, Zip Code)

(Phone Number)

QUESTION(S) PRESENTED
I. Can a court of law in the United States, whether State or Federal Court, render a decision
in a court proceeding without first deciding on a question of law and or fact, that the
petitioner to that proceeding has asked the court?
II. Was the inconsistency demonstrated by the detectives later testimony regarding what was
know about the drugs petitioner had in his possession at the time of his arrest, a material
misrepresentation?
III. Did the new evidence discovered several month after the petitioner's federal habeas corpus
was fully completed, substantiate the petitioner's claims that: (1) petitioner's arrest
and search violated his Fourth Amendment*, right; (2) he was denied the effective assistance
of counseljand (3) the District Attorney committed misconduct by presenting false evidence
to the Grand jury?
IV. Did the District Attorney and the Attorney General knowingly use of this material .
misrepresentation, and each lower court allowing it to go uncorrected when it appeared,
constitute a denial of the petitioner's due process?
V. Due to the irrepairable harm the petitioner has suffered by these aforementioned acts, and
the violation of petitioner's right to due process, does this case warrant a reversal, or,
at the very least, a hearing be held to investigate the merits of all these above claims?

LIST OF PARTIES

[i^All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4-7

REASONS FOR GRANTING THE WRIT

8-10

CONCLUSION

ll

INDEX TO APPENDICES
APPENDIX A Decision of United State Court of Appeals Second Circuit

APPENDIX B Decision of United States Northern District of New York (Rule 60 B)

APPENDIX C Decisi°n °f United States Northern District of New York (Fed Hab)

APPENDIX D Petiti°ners motion to vacate judgment and pursuant to (Rule 60B)

APPENDIX E Respondents opposition to Petitioner's (Rule 60B)

APPENDIX F Petitioner's CPL § 440.10 motion pending decision

TABLE OF AUTHORITIES CITED
CASES
Btwov

PAGE NUMBER

Brady v. Maryland,..,

9

Drake, v. Portundo,

8

McMunn v. Memorial Sloan-Kettering CanceriCenter

9

Napue v. Illinois,

9

Neder v. United States,
United States. Bankruptcy Court, E.D New York

10
9

STATUTES AND RULES
Rule (60B) motion the following:

r.li

28 U.S.C.A. § 2244(b)
28 U.S.C.A. § 2254(e)(2)
Federal Rules;Civil Praetiee 60(b)(.J)!(2)(3)(4)(5) or (6)

OTHER

I-II

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
s been designated for publication but is not yet reported; or,
unpublished.
[
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[If is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] imported at_______________________ ------------------------; or,
[i/Jnas been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

Appel

t Vi

«<K UvU^

to the petition and is

[ ] reported at
; or,
[£j"1ias been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was March 11,2021
[ ] No petition for rehearing was timely filed in my case.
timely petition for rehearing was denied by the United States Court of
Appeals on the following date: April 29,2021
, and a copy of the
order denying rehearing appears at Appendix _a
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
!__ (date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
__________________ ____ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Appendix D Motion to reconsider Rule (60B) motion pgs.1-2
Fourth United States Constitutional Amendment
Fifth United States Constitutional Amendment
Sixth United States Constitutional Amendment
Eighth United States

Constitutional. Amendment

Thirteenth United States.Constitutional Amendment
Fourteenth United States Constitutional Amendment

3

STATEMENT OF THE CASE
The Petitioner has fully exhausted all claims that he brings this Court. All lower Courts have
denied his claims and or affirmed Petitioner's 2015 conviction. The main point theiPetitioner
will raise is that certain inconsistent testimony from one Albany Police officer, which wast.!.
discovered in 2020, well after the Petitioner!s Federal Habeas Corpus was completed and waiting
a decision, constitutes a material representation. A material misrepresentation that influenced
the Grand jury to indict the Petitioner, a material misrepresentation that Petitioner's prior
counsel failed to investigate, and material misrepresentation that influenced the Petitioner
to take a counsel advised plea.
STATEMENT OF FACTS
1.

Petitioner was convicted of criminal possession of a controlled substance in the fourth

degree, by way of a counsel advised guilty plea, May 14,2015.
2.

Petitioner plead to the aforementioned charge January 29,2015, to serve 4.5 years and 3 years

post release supervision. While Petitioner was out on a .$25,000 bail awaiting sentence, The
Petitioner was rearrested on a bench warrant issued January 22,2015, 7 days before his counsel
advised guilty plea.
3.

On basis of the arrest the Court adjourned the Petitioner's March 13,2015, (sentence date for

his counsel advised plea), and on that same day the Court had learned that the Petitioner might
have been involved in an uncharged crime. The Court waited for the prosecution to charge the
Petitioner with the uncharged crime, indictment, another rearrest, (although the Petitioner was
already remanded), and than the Court enhanced the Petitioner's agreed upon 4.5 year sentence
to 7 years.
4.

Petitioner was adamant that he was denied due process in that: his sentence was illegally

, ,,

enhanced and the Court lawfully was required to withdraw his January 29,2015, counsel advised
plea.
5.

On or around September 30,2016, Petitioner submitted a CPL § 440.10 motion to vacate his

conviction under constitutional violations. The grounds were: /(l) defendant was arrested without
probable cause; (2) defendant did not have sufficient counsel; and (3) there are issues that
4

occurred outside the record. Albany County Supreme Court Justice Roger D, McDonough denied that
motion on or around March 16,2017. The Petitioner timely appealed the decision to the Appellate
Division Third Department pursuant.to §§ 450.15, & 460.10, which was also denied May 11,2017.
6. Contemporary to the Petitioner's 2016 CPL § 440.10 motion, Petitioner's direct appeal motion
represented by Scott G. Walling Esq, was pending in the Appellate Division Third Department as
well. That appeal was based on these grounds: 1) Supreme Court erred as a matter of law in
enhancing defendants sentence beyond the agreed-upon 4.5 year determinate prison term without
simultaneously permitting defendant to withdraw his guilty plea; 2) Defendant's waiver of appeal
was invalid and,as such, of no legal.force and effect; and 3) The sentence imposed is harsh and
excessive and should be modified by this Court in the interest of justice. The Appellate
Division Third Department denied the appeal even though they ruled that the appeal waiver, in
fact, was invalid. The judgment was affirmed May 25,2017.
7. Petitioner sought leave to appeal to the Court of Appeals pursuant to § 460.20, which also
affirmed the conviction July 28,2017.
On or around February 20,2018, Petitioner filed a second and third CPL §§,440.10 & 440.20
motion contending: 1) Counsel withheld evidence from defendant and misled defendant into pleading
guilty; 2)Guilty plea was not knowingly and voluntarily made; and 3) Procurement

of,... the.

t lA- U

conviction was based on an indictment supported by false evidence (Please see Appendix F2).
The 440.20 motion was consolidated with the 440.10 motion contending that: The Court illegally
sentence the defendant as a violent predicate felon. Both aforementioned were denied December 6,
2018. All appeals were denied as well.

'■*

■

2The petitioner's CPL § 440.10 motion; presently pending in the Albany,County Supreme Court
further substantiates the Petitioner's claims that: 1) Counsel;withheld evidence from him;,and
2) misled him into taking a guilty plea. This motion is supported by an affidavit from Michael
Jurena, (the Petitioner's counsel at the time), also substantiated the newly discovered
- evidence that the Petitioner received in February 20,2020, while his Federal Habeas Corpus
Petition was awaiting a decision. Please see Appendix B. When the Petitioner raised all his
claims in the lower Court, every ruling was that it was not substantiated. As soon as the
Petitioner discovered the material misrepresentation, the lower Court that it was record based.
How can something that is ruled unsubstantiated and based upon one's own belief, also be on the
record once it is discovered?

5

CA

.g-....-Qn or around June 18)2018, Petitioner move4- -t^ ^-ppej.-l-a-fcfr-B4-v-irS-i-o-n--T-b4-ed--Bepartment by way
of a Writ of Error Coram Nobis, contending that: Appellate counsel was ineffective. That motion
was—den-i-ed—rT-ii-1-y—-2-6-f-2-Q-l-6-.—l.ea-ve—-feo—appeal—to—N-Y—Court of- Appeals-was— denied —as-we-lT10. On or around April 20,2020, Petitioner filed a fifth CPL 440.10 motion contending that:
1) The judgment rendered May 14,2015, was procured by misrepresentation and or fraud on the part
of the prosecution or a person acting in behalf of the prosecuter. That motion was denied on
November 20,2020. All appeals were denied as well.
11. Petitioner presently has another CPL 440.10 motion pending a decision from the Albany County
Supr.eme-Court-.That-motion was filed on-or around May.4,2021. In this motion the Petitioner
contends that: 1) defense counsel failed to investigate key evidence which may have exonerated
defendant of the crime and failed to move to file a motion to suppress evidence, whereby,:counsel
had information that he never communicated to his client, that the Albany police had alleged
that the defendant was involved in a "rip" operation, and allegedly sold crack cocaine to a
confidential informant, thereby, justifying a visual body cavity search that Albany police
officers conducted on defendants; and 2) Michael Jurena intentionally failed to notify defendant
about testifying to Grand jury, therby, precluding defendant from testifying to the Grand jury
that he had not committed a crime,nor was he under any criminal investigation, and there was
no warrant for his arrest. The defendant was seized and the Albany police conducted an instrusive
search on defendant, without reason. These claims are substantiated by the first affidavit
Michael Jurena has every.sent to the Petitioner after years of. request.Please see Appendix F.
12.Petitioner sought Federal Habeas Corpus relief pursuant to 28 U.S.C. § 2254. That motion was
denied July 6,2020. Please see Appendix C.
13. Petitioner sought reconsideration of Federal Habeas Corpus relief. That motion was denied
August 4,2020. Please see Appendix C.
14. Petitioner filed a motion to vacate judgment pursuant to Rule 60(b). That motion was denied
December 4,2020. Please see Appendix B.
15. Petitioner sought to reconsider motion to vacate judgment and that motion was denied
January and that motion was denied January 20,2021. Please see Appendix B.
6

16. Petitioner sought Certificate of Appealability to the United States Court of Appeals Second
Circuit. That motion was denied March 11,2021.
17. Petitioner sought reconsideration of Certificate of Appealability and that motion was also
denied April 29,2021.
18. Presently, Petitioner has a 440.10 motion pending in Albany County Supreme Court based on
ineffective assistance of counsel.
19. No other relief pertaining to this case has been sought in this Court.

7

REASONS FOR GRANTING THE PETITION
This case is grounded in fraud. The prosecution teams knowingly and intentionally material
misrepresentation of facts and evidence, impaired all Court proceedings, defrauded the Court,
impaired the defense, and from the start,impaired the integrity of the Grand jury! Please
Appendix D and compare Exhibits B & C. After a thorough examination of the merits of the
Petitioner's claims, the apex .of the justice system will see that this petition must be granted.
The United States of America pride ourselves on equal protection of the Law and Due process
of the Law. The State Attorney has an ethical responsibility to see to it that the innocent
are acquitted and that the guilty are convicted. This ethically responsibility is abandoned
when the prosecution team knowingly and intentionally omit and/or misrepresent material facts
from the case, and once discovered, acts as if it was already in the Court record when it was
not. Many cases Nation Wide have been overturned within the last 20 or more years due the some
prosecution tampering with evidence or misrepresenting evidence, acting in bad faith with
zeal to achieve a conviction at any cost. Thats not "justice" thats "corruptness"! Due to these
aforementioned constitutional violations countless United States citizens have taking pleas to
crimes they may not have committed or, went to trial, lose, and sit:for decades fighting a
tainted conviction.
In the instant case, the Rule (60B) motion was based upon the inconsistent testimony from the
arresting officer and an Albany police department visual body cavity search report, that, had
never been disclosed until after Petitioner's Federal Habeas was pending a decision. Please
see Appendix D & E. The prosecution team knew of the aforementioned allegations all along and
when it was discovered they continued to defraud the Court by acting as if the newly

discovered

evidence was already apart of the record. A conviction must fall under the Fourteenth Amendment
when the State, although not soliciting false evidence, allows it to go uncorrected when it
appears. U.S.C.A. Const. Amend. 14. See also Drake v. Portundo, 553 R.3d 230 (2009),
This case must be granted to address what constitutes a material misrepresentation and, what
is the remedy for the suppression, omission or misrepresentation for of material evidence.
8

The lower Court affirmed the Petitioner's conviction yet also stated, "First, it is questionable
whether perceived inconsistency demonstrated By the detectives later testimony regarding what
was known about the drugs petitioner had in his possession at the time of his arrest - constitutes
constitutes a material misrepresentation." Please see Appendix B pg. 8 Document 43.
A known disclosure of evidence is a denial of a citizens due process rights guaranteedoby the
fourteenth U.S.C.A. In the Giglio Court, the Court granted certiorari to determine whether
evidence not disclosed was such as to require a new trial under the due process criteria of
Napue v. Illinois, 360 U.S. 264, 79 S.Ct. 1173, 3 L.Ed. 2d 1217 (1959), and Brady v. Maryland,
373 U.S. 87, 83 S.CT. 1194, 10 L.Ed. 2d 215 (1963). In the instant case, the newly discovered
evidence not only exposes the prosecution teams material misrepresentation, the newly discovered
evidence also exposes the fact.that the Petitioner's counsel (at pre trial) was ineffective for
his failure to investigate, and make himself familiar with his client's case. Nevertheless,
the Petitioner, with due diligence discovered the new evidence (material misrepresentation), 6
years after his conviction and after his Federal habeas corpus was completed waiting,decision.
This material misrepresentation is a fraud upon the Court. "Fraud upon the Court" occurs when
it can be demonstrated", clearly and convincingly, that party has sentiently set in motion some
unconscionable scheme calculated to interfere with judicial system's ability,, impartially, to w 1.
adjudicate a matter by improperly influencing the trier or unfairly hampering the presentation
of the opposing party's claim or defense. See McMunn v. Memorial Sloan-Kettering Cancer Center,
191F. Supp.2d 440 2002ML472023. Toi state claim for fraudulent misrepresentation under New York
Law, Plaintiff must allege a misrepresentation or material omission of fact which was false and
by defendant, made for the purpose of inducing Plaintiff to rely upon it, justifiable reliance
by Plaintiff on the misrepresentation or material omission, and injury. See United States
Bankruptcy Court, E.D.Newyork, 547 B.R.49 2016WL1166142.

In the instant case, Petitioner has

discovered a material misrepresentation that was known by the prosecution team at the time they
presented it, the prosecutor.presented it in

way.that would induced the Grand jury to indict

the Petitioner and induced the Petitioner!to defend the material how it was presented, the
Petitioner relied upon the material misrepresentation because in reality there were drugs inside
his boxer shorts. However, it was unknown to him that the prosecution off the record alleged that
9

he had sold drugs to a confidential!Informant, thereby, giving Albany police probable causes to
search the Petitioner at the police station. Had the Petitioner known about!this falser statement
prior to his counsel.! advised plea, he wouldunot have taking a,,plea. Petitioner wouldjhave, went
to trial like he wanted to instead of allowing counsel.: to talk him into plteading ,guilty and
being incarcerated in prison for several years. A false statement is material if it has a natural
tendency to influence, the decision making body which it was; addressed..See Neder v. United
States, 527 U.S. 1,25,119 S.Ct. 1827
The very heart of our justice system;is due.process. Due process encompasses equal protection.
of Law and other United States Constitutional rights. This Court, respectfully, should^address
the merits ,of this Writ and set precedent that, - a material-misrepresentation deniesca party
due process. Respectfully, this;Court shouldvreverse the lower Court decision, order a new
trial, or, at the very least, hearing..,should be held to address the merits of Petitioner’s.,
claims.
Lastly, this Court must grant this petition because it will not only send a message to the
agents that work for; the government, it will send a message to the citizens that are governed
by the government. I message that not one is above the law and that everyone in this Country
is guaranteed all rights of the United States Constitutional Amendments.

10

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

z
Date:

er 3.1j 2Q3l)

11

